              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
 Personnel Security Clearances and
 Badge Access Controls at Selected
 Field Locations




DOE/IG–0582                                 January 2003
PERSONNEL SECURITY CLEARANCES AND BADGE ACCESS
CONTROLS AT SELECTED FIELD LOCATIONS

TABLE OF
CONTENTS



              Site Management of Badge Recovery and Clearance Termination

              Details of Finding ....................................................................... 1

              Recommendations ..................................................................... 4

              Comments .................................................................................. 5


              Appendices

              1. Management Comments ....................................................... 6

              2. Objective, Scope and Methodology .................................... 11

              3. Prior Reports ....................................................................... 13
SITE MANAGEMENT OF BADGE RECOVERY AND CLEARANCE
TERMINATION

Potential Access by   At each of the four locations we visited – the Oak Ridge Reservation
Former Non-Federal    (Oak Ridge), the Savannah River Site (Savannah River), and the Sandia
Workforce             and Los Alamos National Laboratories (Sandia and Los Alamos) – we
                      selected random samples of contractor and other non-federal workers to
                      determine whether badges had been recovered when the workers
                      terminated their association with the Department. Although there were
                      some discrepancies at three of the four locations, only at Oak Ridge was
                      the number of discrepancies significant.

                      Department directives require security badges to be surrendered to a
                      badging office when individuals terminate their association with the
                      Department. Once returned, issuing organizations are required to
                      physically destroy the badge and update the tracking system to revoke
                      the individual's authority to possess a badge. Badges remain the
                      property of the Government and must be surrendered whenever an
                      individual is transferred, terminates employment or association, or
                      when no longer required.

                      At Oak Ridge, 26 of the 309 records sampled indicated that former
                      workers retained badge authority. The badge system showed that three
                      of these individuals were entitled to Q or L badges that would have
                      allowed them, at least theoretically, to inappropriately access restricted
                      areas or classified information. In another case, a former Oak Ridge
                      worker retained authority for a badge even though his employment
                      terminated almost 4 years earlier.

                      After we pointed out these discrepancies to security officials, they told
                      us that they canceled all of the outstanding authorizations and were able
                      to physically recover 6 of the 26 badges (including a Q and an L badge)
                      from the individuals who had terminated their association with the
                      Department. They also indicated that 15 of these individuals could not
                      be located so their badges could not be recovered. Officials discovered
                      that the remaining five individuals were re-hired after our test work.

                      The numbers of discrepancies at the other sites were not as significant.
                      At Sandia in Albuquerque, New Mexico, we noted that 3 of the 416
                      individuals in our sample retained security badge authority. Site
                      officials indicated that they were able to recover all of these badges
                      from the individuals we identified. At Savannah River, we found only
                      2 of 280 records that resulted in exceptions, while at Los Alamos, there
                      were none.




Page 1                                                                      Details of Finding
         It is important to note that at Oak Ridge, as is the case with most
         Department sites, a person who is inappropriately listed as an active
         employee in the local badge system can gain access to the site by
         presenting another form of identification. As we have noted in a
         number of reports in this area (Appendix 2), unauthorized individuals
         could gain access to the Department's facilities and engage in malicious
         acts. The potential for transfer, conversion, or counterfeit of badges
         based on those improperly retained also increases the risk of harm.

                                    Termination of Clearances

         We also reviewed random samples of non-federal workers to determine
         whether the four sites had canceled security clearances1 in the Central
         Personnel Clearance Index (CPCI) when the workers terminated their
         association with the Department. While we found discrepancies in the
         CPCI records at all four locations, the error rates were most significant
         at Savannah River and Sandia.

         When a security clearance is no longer needed, a Termination
         Statement must be submitted to a Department personnel security office
         at the site. Site officials told us that, based on receipt of the
         Termination Statement, federal officials update the individual's
         personnel security file and record the date that access authorization was
         terminated. These officials also update the CPCI, the official
         Department repository where all clearance data are maintained.
         Maintaining accurate information in the CPCI is critical because
         security officials may use it to verify clearance levels and issue badges
         to visitors.

         At Savannah River and Sandia, error rates in the CPCI were
         approximately 19 percent and 13 percent, respectively. At Savannah
         River, 34 of 177 individuals improperly retained the authority to hold
         clearances. While 18 of these errors appeared to have been caused by
         the failure of Federal officials to update the CPCI, 16 of the personnel
         security files did not contain Termination Statements, which indicates
         that the contractor had not taken action to initiate the termination
         process. Two individuals retained Q clearances even though their
         associations had ended more than 10 years earlier. Similarly, at Sandia
         14 of 108 individuals inappropriately maintained active clearances. For
         example, one student held an L clearance even though the assignment
         was terminated in September 1997. Only 2 of the 14 personnel security
         files contained evidence that the termination process had been initiated.

         1"
          Security clearance" and its variations mean "access authorization" as defined in Title
         10, Code of Federal Regulations, Part 710 and DOE Order 472.1B.

Page 2                                                                   Details of Finding
                        The error rates at Oak Ridge and Los Alamos were not as significant.
                        At Oak Ridge we found 15 individuals that had active clearances in the
                        CPCI, which represented about 6 percent of the random sample. At Los
                        Alamos, only two individuals maintained active status, representing less
                        than 1 percent of the sample. While these clearances remained active in
                        the CPCI, we noted that personnel security files for these individuals
                        contained properly completed Termination Statements.

                        This breakdown of controls over clearance terminations could allow
                        unauthorized access to information and facilities. Officials from
                        Headquarters Personnel Security indicated that unauthorized
                        individuals could gain access to headquarters' facilities if their
                        clearances were not properly terminated in the CPCI system and a third
                        party verified their visit. Thus, the information in the CPCI is a critical
                        part of the control structure for preventing access by unauthorized
                        individuals, and identified weaknesses in the system reduce its
                        effectiveness as a security layer.

Badging and Clearance   Site-level badge recovery and clearance termination processes were
Controls                inefficient and suffered from a number of control weaknesses.
                        Contractor officials told us that they were not always provided with exit
                        or termination information. Additionally, some sites relied on faxes or
                        hand-delivery of employment or clearance termination information that
                        was not always effective. For example, while Sandia officials had
                        evidence that they had faxed seven clearance termination statements,
                        the Albuquerque Personnel Security Office had no record of receipt and
                        did not terminate the clearances in the CPCI system. Savannah River
                        used a "hand carry" system to provide clearance termination
                        notifications but did not require acknowledgement of receipt. Site
                        badge officials also told us that they did not always follow up with
                        Department personnel security offices to ensure that the termination
                        information was received and that updates were properly made in the
                        CPCI system.

                        We also observed that sites did not employ a comprehensive
                        reconciliation process to identify individuals that no longer required
                        badges or clearances. For example, while reconciliations between the
                        CPCI and local badge systems took place, comparisons of human
                        resource information to clearance or badge systems were not always
                        performed.




Page 3                                                                         Details of Finding
                          Failure to promptly terminate clearances and recover badges increases
                          the risk of malicious damage or unauthorized access to Department
                          assets and potentially endangers Department workers. Current
                          processes do not ensure that authorizations are promptly removed from
Information, Property,    systems and could permit those who improperly retained a clearance or
and Individuals at Risk   badge with a window of opportunity to enter or access sites without
                          authority. Therefore, the possibility exists that disgruntled or disloyal
                          former workers could gain access with the intent to disrupt operations,
                          obtain information, or cause harm to Department property or
                          employees. If security controls are not rigorously enforced, national
                          security information, various types of classified and unclassified
                          property, and the security of Department workers are at risk.

                          To improve controls over clearance terminations and badge recovery,
                          we recommend that the Assistant Secretary for Environmental
                          Management, the Director, Office of Science, and the Associate
                          Administrator for Facilities and Operations, National Nuclear Security
RECOMMENDATIONS           Administration should, in conjunction with the Office of Security:

                          1. Enhance controls to ensure that badges are recovered and that
                             clearances are appropriately terminated when no longer needed. At
                             a minimum:

                             a. Establish requirements and associated incentives for sub or
                                lower tier contractors to promptly recover badges and initiate
                                action to terminate unneeded clearances.

                             b. Require personnel security offices to acknowledge receipt of
                                termination notifications, and require site badging officials to
                                ensure that updates have been entered in the CPCI system.

                          2. Develop procedures to ensure consistency between the site systems
                             that track security badges and the CPCI. At a minimum, require site
                             badging officials to periodically reconcile human resources data to
                             the local badge system and the Department's CPCI system.

                          3. Evaluate and correct, as necessary, information in both the CPCI
                             and the badge systems to ensure that only currently employed
                             individuals hold active clearance and badge status.

                          NNSA concurred with the recommendations and planned to take
                          corrective actions to address the conditions cited in this report. While
                          the Offices of Environmental Management and Science did not
                          specifically concur with the recommendations, they took corrective


Page 4                                                                        Recommendations
MANAGEMENT REACTION   actions that were responsive to the recommendations. In addition, we
                      provided clarifying information and made adjustments to the report to
                      address specific management comments. After completion of these
                      technical adjustments, the Office of Security informed us that it
                      generally concurred with our findings and recommendations.

                      In commenting on the draft report, the Office of Science commented on
                      Recommendation 1 and indicated that the establishment of
                      requirements and incentives for badge recovery and clearance
                      termination may not be necessary because an existing Departmental
                      Order and Manual already establish requirements. The Office of
                      Science also indicated that the draft report implied an overly simplified
                      correlation between unauthorized access to security areas and access to
                      classified matter.


                      With respect to the Office of Science comments, we recognize that a
                      DOE Order and Manual establishing such requirements were in place
                      during our fieldwork. However, Recommendation 1 is directed at
                      establishing controls at the site level to ensure that Departmental
AUDITOR COMMENTS      requirements such as DOE Orders and Manuals are implemented.
                      Additionally, DOE Manual 5632.1C-1 applicable to the recovery of
                      badges was recently cancelled and replaced with DOE Manual 473.1-1,
                      which exempts sites using Office of Science badges from Department
                      security badge requirements. Accordingly, it is important for these
                      Office of Science sites to establish both requirements for recovering
                      badges and terminating clearances, as well as controls to ensure that
                      such requirements are implemented.

                      Regarding the Office of Science contention that the report presented an
                      overly simplified correlation between unauthorized access to security
                      areas and access to classified matter, we acknowledge that a valid need-
                      to-know is necessary before access to classified matter can be granted.
                      However, the information in the report points out that a weakness in
                      any layer of security can reduce the overall effectiveness of controls
                      established to prevent unauthorized access.




Page 5                                                                             Comments
Appendix 1




Page 6       Management Comments
Appendix 1 (continued)




Page 7                   Management Comments
Appendix 1 (continued)




Page 8                   Management Comments
Appendix 1 (continued)




Page 9                   Management Comments
Appendix 1 (continued)




Page 10                  Management Comments
Appendix 2

OBJECTIVE     To determine whether the Department was recovering security badges
              and terminating unneeded clearances when non-federal employees
              terminate employment.


SCOPE         The audit was performed from April through August 2002 at the Oak
              Ridge National Laboratory, East Tennessee Technology Park, and Y-12
              Plant in Oak Ridge, Tennessee. We also performed work at the
              Savannah River Site near Aiken, South Carolina; at Sandia National
              Laboratory in Albuquerque, New Mexico; and at Los Alamos National
              Laboratory in Los Alamos, New Mexico. Our test work consisted of
              random sampling of universes from site badge and human resources
              systems, using the Headquarters Central Personnel Clearance Index as
              of April 15, 2002, as a reference.


METHODOLOGY   To accomplish the audit objective, we:

                 •   Obtained data files of active badges from site badge systems and
                     active clearances from the CPCI system at Headquarters;

                 •   Used Army Audit Agency statistical sampling packages in
                     Audit Command Language (ACL) to determine sample sizes
                     and to select sample items;

                 •   Tested random samples of individuals in site badging systems to
                     determine whether they were still employed;

                 •   Used ACL to compare information on all individuals with a
                     security clearance in site badge systems to information in the
                     CPCI. We also compared all individuals in the CPCI to
                     information in site badge systems. These tests identified
                     individuals terminated in one system but not the other;

                 •   Selected and tested random samples of individuals from both
                     contractor and sub-contractor human resource listings of
                     employee terminations to determine whether they still had an
                     active clearance in the CPCI or an active badge in the site badge
                     system;




Page 11                                       Objective, Scope, and Methodology
Appendix 2 (continued)

                         •   Spoke with representatives of sponsoring organizations or
                             company officials to determine whether individuals were still
                             employed;

                         •   Provided site officials the opportunity to verify the
                             discrepancies we discovered through our sampling process; and,

                         •   Confirmed with site badge personnel whether badges were
                             actually recovered.


                     The audit was conducted in accordance with generally accepted
                     Government auditing standards for performance audits and included
                     tests of internal controls and compliance with laws and regulations to
                     the extent necessary to satisfy the audit objective. Because our review
                     was limited, it would not necessarily have disclosed all internal control
                     deficiencies that may have existed at the time of our audit. Because of
                     problems with data inputs, we questioned the validity of computer-
                     processed data.

                     We assessed the Department's compliance with the Government
                     Performance and Results Act of 1993. The Department's Annual
                     Performance Plan for Fiscal Year 2002 did not contain specific
                     performance data addressing security activities to prevent unauthorized
                     access. However, the Department's Annual Performance Plan for Fiscal
                     Year 2003 does include more specific performance goals, targets, and
                     program funding descriptions that do address the commitment to protect
                     classified information and assets and prevent unauthorized access.
                     Management waived the exit conference.




Page 12                                               Objective, Scope, and Methodology
Appendix 3
                                          PRIOR REPORTS


 OFFICE OF INSPECTOR GENERAL REPORTS


 •   Personnel Security Clearances and Badge Access Controls at Department Headquarters, (DOE/
     IG-0548, March 2002). Unauthorized individuals could have gained access to Department
     Headquarters. Of 147 Federal and contractor employee records selected for review, the audit found
     that in 9 cases the Department had either not terminated the employees' clearances or had not
     recovered their badges. Errors occurred because program offices had not always provided
     employment termination information to security operations personnel or held contractors
     accountable for adherence to Departmental policy.

 •   The U.S. Department of Energy's Audit Follow-up Process, (DOE/IG-0447, July 1999). By
     eliminating the blanket clearance polices and closely monitoring individual clearance requests, the
     number and level of security clearances dropped substantially. Decreases in employment levels
     also contributed to the drop. However, the Department had limited success in addressing clearance
     processing and reinvestigations problems.


 GENERAL ACCOUNTING OFFICE (GAO) REVIEWS


 •   Review of DOE’s Personnel Security Clearances Program, (DOE/IG-0323, March 1993). The
     Department issued unnecessary clearances, clearances at a level higher than necessary, and had not
     terminated clearances that were no longer needed. Throughout the Department, processing of
     initial clearances was slow and numerous reinvestigation backlogs occurred. This occurred because
     field offices did not comply with regulations and procedures for clearance terminations,
     justifications, and recertifications. It was recommended that blanket clearances be discontinued, a
     critical review of clearance justifications be performed, numbers and levels of clearances be
     reduced, standards be developed for cases containing derogatory information, and cases adjudicated
     within 90 days.

 •   Key Factors Underlying Security Problems at DOE Facilities, (GAO/T-RCED-99-159, April 20,
     1999). The U.S. General Accounting Office (GAO) has performed numerous reviews of security
     that show weaknesses dating back to the early 1980s. GAO found problems with long delays in
     conducting security investigations; the Department’s security clearance database was incorrect;
     individuals with clearances that should have been terminated; and individuals with badges but
     without active clearances.




Page 13                                                                                     Prior Reports
                                                                              IG Report No.: DOE/IG-0582

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
